IN THE SUPREME COURT OF THE UNITED STATES

OMAR CEBRERO,
Petitioner,

v.

ROSEMARY NDOH,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Certificate of Service

I, Kristi A. Hughes, appointed to represent the petitioner under the Criminal Justice Act,
certify that on September 8, 2021, one copy of the Petition for a Writ of Certiorari, the Appendix,
and a Motion to Proceed In Forma Pauperis in the above-captioned case were served by first-
class mail, postage prepaid, to respondent's counsel. I further certify that all parties required to
be served have been served. Service was addressed as follows:

Paul O’Connor

Deputy Attorney General

Office of the California Attorney General
1300 I Street

Suite 125

Sacramento, CA 95814

Respectfully submitted,

September 8, 2021

 

frdiff, CA 92007
Telephone: (858) 215-3520
Counsel for Petitioner

16
